COCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

COLUMBIAN FINANCIAL CORPORATION,
Petitioner,

Vv.

TIM KEMP, in his official capacity
as Bank Commissioner of Kansas;
Deputy Bank Commissioner of Kansas,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOHN R. MUNICH ROBIN K. CARLSON
Counsel of Record ERIN M. NAEGER
J. NICCI WARR STINSON LLP
STINSON LLP 1201 Walnut Street,
7700 Forsyth Blvd., Suite 2900
Suite 1100 Kansas City, MO 64106

St. Louis, MO 63105

Tel: 314.863.0800

Fax: 314.863.9388
john.munich@stinson.com
nicci.warr@stinson.com

Subscribed and sworn to before me this 6th day of September, 2019.

Tel: 816.842.8600

Fax: 816.691.3495
erin.naeger@stinson.com
robin.carlson@stinson.com

Attorneys for Petitioner

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

EE AO,

 

Notary Public

Affiant 38408
Tim Kemp, Bank Commissioner of Kansas

Brock Roehler, Staff Attorney; Special Assistant Attorney General
Office of the State Bank Commissioner of Kansas

700 SW Jackson Street, Suite 300

Topeka, KS 66603

(785) 296-1497

tim.kemp@osbckansas.org

Toby Crouse, Solicitor General of Kansas

Dwight Carswell, Assistant Solicitor General

Stanley R. Parker, Assistant Attorney General

Office of the Attorney General for the State of Kansas
120 SW 10th Street, 2nd Floor

Topeka, KS 66612

(785) 368-6693

toby.crouse@ag.ks.gov
